Department of Health and Human Services

        OFFICE OF 

   INSPECTOR GENERAL 





IN-HOSPITAL VOLUNTARY PATERNITY 

    ACKNOWLEDGMENT   PROGRAM 


    Effective Practices in Parent Outreach




                       JUNE GIBBS BROWN
                       Inspector General

                           AUGUST 1997
                          OEI-06-95-00163
                             OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services, the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretary of
HHS of program and management problems and recommends courses to correct them.

                  OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI’s Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General.

Project Staff included:


DALLAS REGION                                                   HEADQUARTERS 


Ruth Arm Dorrill, Project Leader 
                              Ann O’Connor, Program Specialist 

Lisa Lesh, Intern 

Marnette Robertson 





For additional copies of this report, please contact the Dallas Regional Office at (800) 848-8960.
Department of Health and Human Services

        OFFICE OF 

   INSPECTOR GENERAL 





IN-HOSPITAL VOLUNTARY PATERN ITY 

    ACKNOWLEDGMENT   PROGRAM 


    Effective Practices in Parent Outreach




                      JUNE GIBBS BROWN
                      Inspector General

                           AUGUST 1997
                          OEI-06-95-00163
                EXECUTIVE                            SUMMARY

PURPOSE

This report describes State best practices in outreach to and education of unmarried parents
on voluntary paternity acknowledgment.

BACKGROUND

Federal law requires that States implement hospital-based programs for the voluntary
acknowledgment of paternity, seeking to facilitate at-birth paternity establishment for children
born to unmarried parents. Paternity researchers agree that the most opportune time for
paternity establishment is the “happy hour” in the hospital immediately following the birth
and before the release of the mother and child. State child support agencies are required to
make available materials for educating parents, and hospital staff must provide mothers and
fathers with both written materials and oral explanations regarding the rights and
responsibilities of paternity establishment. In addition, parent outreach materials must be
made available at vital records and child support offices, and are encouraged to be distributed
to others who interact with unmarried parents.

FINDINGS

In collecting information nationwide for our companion report on State agency and birthing
hospital implementation of paternity acknowledgment programs, we found that most State
child support agencies (IV-D) had launched efforts to inform parents of the paternity effort.
This report describes effective or innovative parent outreach and education practices and
materials. These highlighted practices in no way represent all efforts nationwide, but give a
snapshot of practices and materials that have been reported to us by State agencies and
hospitals in the course of our study.

Guidelines for Creating and Utilizing Parent Outreach Materials

Outreach materials should clearly communicate the benefits and consequences of paternity
acknowledgment, and not just the mechanics of documentation.

Thoughtful outreach materials should be specifically relevant to the target population,
reaching unmarried parents of varied languages and backgrounds.

Multiple outreach opportunities can be used to reach a broader segment of the target group
and to introduce early, and reinforce through repetition, a clear message on paternity
acknowledgment.

Brochures and information sheets may be used effectively to educate parents, but they should
be brief and engaging and accompanied by interactive outreach methods.



                                                 1
Hospital staff may be able to enhance acknowledgments by personalizing outreach efforts
using information from patient surveys or birth certificate worksheets.

Proactive hospitals offer multiple opportunities for parents to learn about voluntary paternity
acknowledgment, using pre-registration and hospital admittance to take advantage of early
contact with parents.

A few States have begun to place child support employees on-site at high-risk birthing
hospitals to help hospital staff and to communicate directly with unmarried parents.

Direct Contact Between Hospital Staff and Unmarried Parents

Hospitals report parents are largely open to talking about paternity issues, so direct
discussion appears to be an important tool for encouraging acknowledgment.

Talking with the mother alone initially may allow for greater privacy and a clearer focus on
paternity issues.

Supplementing prepared outreach materials with discussion encourages understanding and
allows hospital staff to be responsive to individual parent questions.

Pre-arranging a time for the father to sign or receive information may avoid problems of
timeliness and coordination, and allow staff to talk with both parents at once.

Hospital staff should be prepared to make clear the benefits of acknowledging and answer
related questions not covered in outreach materials, using related topics such as the baby’s
surname to introduce the idea of acknowledgment.

Prenatal Education

Since many hospitals already provide childbirth classes, some States are able to include
paternity acknowledgment education as part of pre-existing class curriculums.

Medical clinics, physicians’ offices and schools are valuable venues for addressing paternity
acknowledgment during prenatal education.

Follow-Up After Discharge

Timely follow-up with mothers after hospital discharge reintroduces the idea of
acknowledgment at a less hectic time and provides a method for supplying additional
outreach materials and documentation forms.




                                                 ii
AGENCY COMMENTS

We have worked in close partnership with the Office of Child Support Enforcement (OCSE)
throughout the conduct of this inspection. Although we did not receive formal comments
from ACF on our draft reports, they demonstrated through their collaboration a general
agreement with this report and the companion reports. We worked with OCSE in developing
a research methodology, provided extensive briefings on study findings and created additional
documents to meet agency needs. We appreciate their cooperation and guidance and will
continue to work with them on the issues raised in these reports.




                                               ...
                                               111
                     TABLE                 OF        CONTENTS

                                                                                                    PAGE

EXECUTIVESUMMARY                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDINGS

     Guidelines for Parent Outreach        . . . . , . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

     Direct Contact between Staff and Parents . . . . . . . . . . . . . . . . . . . . . . . . . . 7

     Prenatal Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

     Follow-Up After Discharge          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

CONCLUSIONS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

APPENDICES

A.         Typical Questions and Answers ..........................                                     A-l
B.         Sheet for Parents’ Initials ...............................                                  B-l
C.         Typical Brochure ....................................                                        C- 1
D.         Parent Information Sheet ..............................                                      D-l
E.         Parent Statements ....................................                                       E-l
F.         Patman Comic Excerpt .................................                                       F-l
G.         Certificate Worksheet ................................                                       G- 1
H.         Evaluation .......................................                                           H-l
I.         Follow-up Letter ....................................                                         I-l
                          INTRODUCTION

PURPOSE

This report describes State best practices in outreach to and education of unmarried
parents on voluntary paternity acknowledgment.

BACKGROUND

The Omnibus Budget Reconciliation Act of 1993 (OBRA) amends the Child Support IV-D
Title of the Social Security Act, requiring States to implement hospital-based programs for
the voluntary acknowledgment of paternity. The objective of these programs is to
facilitate at-birth paternity establishment for children born to unmarried parents.
Establishment of paternity at birth has many administrative, financial and emotional
benefits. Mothers often lack information about the importance of and methods for
establishing paternity. Consequently, they may not seek to establish paternity until a point
at which the process becomes more difficult.

Paternity researchers agree that the most opportune time for paternity establishment is the
“happy hour” in the hospital immediately following birth and before the release of the
mother and child. Within this narrow window of exposure to unmarried parents, birthing
hospital staff must be prepared to inform parents about the option of voluntary
acknowledgment. Additionally, parent outreach materials must be made available at State
vital records office, child support agency offices and are encouraged to be distributed to
other public agencies that interact with unmarried parents. Without an establishment of
paternity, unmarried mothers may never obtain a child support order and gain access to
the enforcement services of their child support office.

Under OBRA, State child support agencies must, among other requirements, make
available voluntary acknowledgment outreach materials, including information on parental
rights and responsibilities, and materials for training hospital staff. State child support
agencies must monitor birthing hospital compliance on at least an annual basis. The
Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA)
expands the role of hospital staff by requiring them to provide mothers and fathers with
both written materials and oral explanations regarding the rights and responsibilities of
paternity acknowledgment. As interpreted by the Office of Child Support Enforcement
(OCSE), the intent of both OBRA and PRWORA is to make voluntary paternity
acknowledgment part of the birth registration process.

This report, which describes State efforts to provide education and outreach to unmarried
parents is one of four in a series on hospital-based voluntary paternity acknowledgment
programs. “In-Hospital Voluntary Paternity Acknowledgment Programs: State Agency
and Birthing Hospital Implementation” (OEI-06-95-00160) details nationwide program
participation, “In-Hospital Voluntary Paternity Acknowledgment Programs: Hospital
Experiences in Sample States” (OEI-06-95-00161) describes program usage using survey


                                              1
responses   from birthing hospitals and State agencies in 15 sample States, and “In-Hospital
Voluntary    Paternity Acknowledgment Programs: Effective Practices In Hospital Staff
Training”   (OEI-06-95-00164) highlights State efforts to educate birthing hospital staff on
voluntary   paternity acknowledgment procedures.

METHODOLOGY

After preinspection research, we administered comprehensive mail surveys on the
voluntary paternity acknowledgment process to State child support and vital records
agencies in every State and the District of Columbia and to 566 birthing hospitals in a
sample of 15 States. In addition to completing the surveys, which provided data for our
primary reports on implementation and hospital experiences, agencies sent examples of
paternity acknowledgment education and outreach materials, training materials, and
photocopies of their birth certificates and voluntary paternity acknowledgment forms. We
received completed surveys and supplemental materials from both agencies in every State
and from 78 percent of birthing hospitals sampled.

The supplemental materials for parent outreach and education included brochures,
information sheets, and videos. We conducted telephone follow-up approximately six
months after receiving these materials to request any supplemental outreach materials and
received a number of new or updated items. Content analysis of the materials was
conducted and a smaller number of materials and innovative ideas were judgmentally
selected for inclusion in this report.

This study was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                               2

                                  FINDINGS 


In collecting information nationwide for our companion report on State agency and
birthing hospital implementation of voluntary paternity acknowledgment programs, we
found that most State child support agencies (IV-D) had launched efforts to inform
birthing hospital staff of the paternity effort and to provide outreach and education
materials to supplement communications with unmarried parents. This report describes
effective or innovative parent outreach and education practices and materials. These
highlighted practices in no way represent all efforts nationwide, but give a snapshot of
practices and materials that have been reported to us by IV-D and vital records agencies
and by hospitals in the course of our data collection.

Parent outreach and education is an important and vital part of the hospital-based paternity
acknowledgment program. Several States and hospitals have made exemplary efforts to
educate their unmarried mothers and fathers about establishing paternity. These efforts
have included prenatal education, guidance for direct contact with mothers in the hospital,
and the dissemination of written materials. Parent outreach and education helps unmarried
parents gain knowledge about their rights and responsibilities as parents. It is vital for
them to have the opportunity to become educated and ask questions before making the
important decision to acknowledge paternity.

GUIDELINES FOR PARENT OUTREACH

Outreach Materials Should Clearly Communicate the Benefits and Consequences of
Paternity Acknowledgment, Not Just the Mechanics of Acknowledgment Documentation.

Brochures and information sheets are the most common outreach vehicles created by State
child support agencies and provide the primary context for parents’ understanding of
paternity acknowledgment. A typical brochure contains explanatory statements answering
what, why, and how to establish paternity. Appendix A includes a listing of typical
questions and answers contained in written materials.

A complete explanation of why it is important to establish paternity should point out
benefits the child may be eligible for, such as Social Security, veteran’s funds, health care
coverage, life insurance, any military allotments or military medical insurance, injured
worker’s payments, and inheritance. Other benefits to the child in establishing paternity
are knowing the identity of the father, the family medical history, and securing child
support.

Thorough written materials should address not only the benefits to the child but also
outline paternity rights and responsibilities. For ease of explaining the rights,
responsibilities and benefits, Massachusetts has an information sheet which parents must
initial before signing the affidavit (See Appendix B). Outreach materials should also
provide information on how fathers may undergo genetic testing and any costs associated
with such a test. Additionally, brochures may briefly address establishing paternity for


                                              3
older children and provide contact telephone numbers for information. A typical brochure
is included in Appendix C and a typical information sheet is included in Appendix D.

States might also add clarity and better communicate with parents by segmenting their
brochures into portions which discuss the unique perspectives of the mother and father.
One State labeled these sections “Questions Mom Ask” and “Questions Dads Ask.”
Fourteen States sent us separate brochures for the mother and father which emphasize
concerns unique to each, including Nebraska which created a folder “Paternity for
Parents” enclosing the two brochures along with the affidavit. The State of Virginia even
separately outlines the rights and responsibilities statements for each parent on the front of
the affidavit (Appendix E). Beyond the basics of acknowledging, typical materials for the
father discuss genetic testing, payment of child support, custody and visitation issues,
adoption proceedings, and the emotional benefits of fatherhood. Brochures for the mother
address issues such as eligibility for public assistance, relationship questions such as living
arrangements or marrying a man other than the father, and paternity acknowledgment for
siblings.

Other materials are designed specifically for young parents. For example, the State of
Washington created a comic book to explain paternity establishment to minors (See
Appendix F for excerpts). The book, entitled “Patman: Protector of Children’s Bights,”
illustrates a story of two young parents trying to decide whether or not to acknowledge
paternity.

Thoughtful Outreach Materials Should be Specifically Related to the Target Population,
Reaching Unmarried Parents of All Relevant Languages and Backgrounds, Predicting
and Addressing Parent Questions About Related Issues.

Cultural and lingual differences present challenges in outreach efforts, and it is important
for all unmarried parents to have a clear understanding of the benefits and consequences
of acknowledging paternity, regardless of their background. Outreach materials should be
available in languages appropriate to the population and should be sensitive to cultural
differences. A Colorado hospital uses a telephone translation language line to help parents
and staff communicate, and some hospitals require their birth registrars to learn prominent
alternative languages such as Spanish. Outreach materials and any discussion between
hospital staff and parents should also be sensitive to misinformation about paternity that
may be communicated through the patient’s social network. For example, one State has
reported some confusion over whether common law marriages negate the need to
acknowledge paternity by affidavit. In this case, it is necessary for hospital staff to
technically distinguish between a common law and legal marriage and to explain to the
parents the implications of their status pertaining to establishing legal paternity.




                                               4

Videos are Useful Supplements to Oral Discussion and Written Materials, especially in
Cases Where Staff have Limited lime for Interaction with Parents.

Watching a video can give unmarried parents a better understanding of why
acknowledging paternity is important and allow them to hear “directly” from other
unmarried parents who have chosen to establish paternity. Watching role-playing on
video gives them the sense that they are not the only ones who have faced this kind of
decision. Because they may not be able to visit all hospitals in their State, videos allow
State child support agencies to reach a wider audience using an interactive medium.
Videos can be sent to schools and clinics as well. Videos may be especially helpful for
outreach to parents with low education levels or poor communication skills who may not
fully understand written materials and oral discussion.

Hospital rooms are often equipped with video equipment because they rely on videos to
provide information on other parent and child issues. Videos received from Arkansas,
Colorado, Kansas, Nebraska, New Hampshire, and Oregon use a variety of formats,
usually dramatizing a hospital scenario and emphasizing the emotional and legal benefits
to acknowledgment. Nebraska’s video includes explanatory segments with a clinical
psychologist, a judge, an obstetrics/gynecologist physician, and a registered nurse who
give their various perspectives on the benefits of paternity acknowledgment.

Hospital Staff May be Able to Personalize Outreach Efforts By Using Information From
Patient Surveys or Birth Certijicaie Worksheets.

Because birth certificate worksheets are widelv used, they serve as a valuable source of
information to hospital staff in targeting the snecific needs of individual narents.

Often a birth certificate worksheet is the formal tool used to find out whether or not the
mother is legally married and therefore introduce the paternity acknowledgment program
(see Appendix G for birth certificate worksheet sample). We found in our companion
report on hospital experiences that 84 percent of hospitals use birth certificate worksheets.
These forms may be a barrier to acknowledgment if the parents fill them out alone with
no interaction. However, if used properly, they can serve as a springboard to discussion
about paternity.

For example, a California birth registrar requests that the mother fill out the birth
certificate worksheet upon arrival when possible so he will have time to review the
information before talking with the parents post-delivery. Whether hospital staff knew of
a mother’s unmarried status before or not, they use the occasion of completing the
worksheet and the mother’s subsequent responses to personalize their outreach to parents.
Another hospital describes getting as much information as possible from the computer and
compiling it on the worksheet, then talking with the mother to add other information and
check for correctness, at which point the paternity information is given to her to read and
consider. Hospitals which do not use birth certificate worksheets learn the patient’s
marital status during hospital registration.



                                              5

One hospital reports using; a questionnaire to assess parents’ needs before discussing
paternity acknowledgment.

An innovative Colorado hospital uses a brief patient evaluation form to determine parents’
specific needs and circumstances. The hospital records basic information about the
parents and baby and whether the father is present at delivery. The idea behind the
survey is to help open lines of communication with the mother and to consider each
mother’s situation before discussing paternity with her. The form also serves to monitor
hospital effort in explaining paternity to parents by recording whether the parent talked
with a staff member about paternity, watched the paternity outreach video, or took a
prenatal class. Additionally, the form includes a checklist of possible reasons why parents
don’t acknowledge. Compiling this information in aggregate could help hospital staff and
the State child support agency analyze what factors influence parents to acknowledge in
order to better meet the needs of future clients. The patient evaluation is included in
Appendix H.

Proactive Hospitals Offer Multiple Opporfunities for Parents to Learn about Voluntary
Paternity Acknowledgment, Using Pre-Registration and Hospital Admittance to T&e
Advantage of Early Contact With Parents.

Hospitals should use a combination of methods to educate parents, providing multiple
opportunities for parents to receive paternity information. This is valuable because
mothers may respond to different methods of outreach. One mother may be willing to
look at the materials after delivery, but for another the prime time may be before labor or
even during pre-registration. An Arkansas hospital provides three opportunities for a
parent to learn about and acknowledge paternity: parents are introduced to the idea of
paternity by hospital admissions staff and given written outreach materials; nursery staff
mention acknowledgment in the course of completing the birth certificate with the parents;
mother and child discharge through the birth registrar’s office and are given a final
opportunity to sign and notarize the affidavit. These multiple entry points need not unduly
pressure parents to acknowledge. Rather, they may serve as convenient reminders during
a busy and confusing time and increase the likelihood that the father will be present when
signing and notarizing are possible.

Several hospitals provide information about the program during the admissions or pre-
registration process. One hospital places paternity brochures and an affidavit in the
admissions packet to allow parents to consider the issue before the maternity nurse talks
with them. The nurse said, “Often, by the time I see them they have already made up
their minds and myself or another person can go ahead and notarize the affidavit.”
Another hospital with a high rate of acknowledgment confirms that the earlier parents
learn about acknowledgment the more likely they are to sign. A medical records director
in Texas contends, “They are not here long, so the mother receives the information at pre-
registration before admission. ”




                                              6

Some hospitals report pre-registering mothers for delivery six months in advance. When
the mother arrives for the actual delivery, if she is in early labor the nurse will ease her
into thinking about paternity, saying things like “have you thought about or are you
planning on claiming paternity?” It is mandatory that the labor and delivery nurse ask if
the father will attend the birth, so discussing paternity acknowledgment can normally
follow that line of questioning. Following pre-registration, the mother goes to the mother-
baby unit, where a social worker visits to help her in meeting financial and home care
needs. This staff member also discusses paternity acknowledgment with the mother,
particularly if she has questions. If the mother has not decided about acknowledgment
after talking with the social worker, the prenatal secretary is responsible for discussing it
with parents at admittance. She refers to herself as the “catch-all, ” meaning the final
person responsible for ensuring paternity has been discussed with all unmarried parents.

A Few States Have Begun to Place Child Support Employees On-Site at High-Risk
Birthing Hospitals to Help Hospital Staff and to Communicate Directly with Unmarried
Parents.

Two full-time child support employees in Colorado visit hospitals specifically to provide 

outreach and education on paternity establishment. They are instructed to be respectful of 

hospital routines and one respondent refers to herself as a “guest” in the hospital and 

mother’s rooms. This type of “out-stationing” is still unusual but is practiced in a few 

States, including Illinois and Florida. Those who advocate this labor-intensive strategy 

claim that it eases the burden on staff in those hospitals which assist a large number of 

nonmarital births. In addition to out-stationed employees, other child support staff 

communicate via telephone with the hospitals which have questions. 


In Florida, out-stationed child support caseworkers in high-Medicaid hospitals are 

typically officed in the hospital’s medical records or Medicaid payment offices and work 

in conjunction with the birth registrars, who still handle the actual birth registration and 

documentation. A typical experience would be for the birth registrar to give the mother a 

paternity outreach brochure along with the birth certificate worksheet. The child support 

caseworker then approaches the mother later in the day to follow-up and answer questions. 

Whenever possible, the caseworker will try to schedule the visit when the father is 

present. These on-site caseworkers offer a child support connection to the mother for 

other siblings who might also need paternity establishment or help in establishing support 

orders. 


DIRECT CONTACT BETWEEN STAFF AND PARENTS 


Hospitals Report Parents are Largely Open to Talking About Paternity Issues, so Direct
Discussion Appears to be an Important Tool for Encouraging Acknowledgment.

When hospital staff discuss acknowledgment with parents, in addition to giving them the
materials to read, they are more likely to fully grasp their option and to understand the
implications of signing the paternity affidavit. This oral discussion is not only beneficial
for parents, but as previously mentioned, is mandated in PRWORA. Although the amount


                                              7
of time available for discussion varies, depending on the mother’s hospital stay and
staffing, hospitals report most mothers are open in asking questions concerning
acknowledgment and the paternity affidavit, The written materials serve as a catalyst to
prompt questions and promote discussion. After giving them time to review the materials,
one nurse schedules herself to be available to talk with parents when both mother and
father can be there for questions. Hospitals report parents often ask questions, regardless
of whether they are already familiar with paternity acknowledgment or if it is new to
them. Hospitals active in attempting to meet the needs of parents provide opportunities to
discuss paternity acknowledgment in order to encourage parent understanding.

Hospital staff should be prepared to clarify the numerous benefits of acknowledgment and
to answer related questions not covered in outreach materials. Predicting and addressing
issues such as child support helps relieve parents’ anxiety and gives them a clearer
understanding of paternity. Even when thorough outreach materials are available, parents
may be unwilling or unable to comprehend various issues and concerns. Parents may
understand the literature but be confused about how it relates to their particular situation.
We found in our companion report on hospital experiences that both the child support and
the vital records agencies rate hospital staff as largely capable and willing to address
issues with parents, and hospitals report parents are usually receptive to discussion and
advice. Therefore, hospital staff must be versed on important paternity issues and be
clear on their responsibility to communicate with parents.

Hospitals surveyed generally report the same types of questions were asked, regardless of
the parent’s circumstances, so the body of information to master should not be exhaustive.
Most commonly asked questions deal with the baby’s surname, eligibility for public
assistance, paternity establishment for siblings, payment of hospital bills, custody and
visitation, and issuance of child support. The importance of explaining these corollary
issues should not be underestimated, as they may have a dramatic effect on decision-
making. Concern about the baby’s surname, for example, may lead parents to
acknowledge. At a minimum, staff must be capable of referring parent questions to the
appropriate public agency.

Talking with the Mother Alone Initially May Allow for Greater Privacy and a Clearer
Focus on Paternity Issues.

A number of hospital respondents prefer to talk first with the mother alone, giving her
time to broach the subject of paternity with the father privately, and then follow up with
additional information and discussion with both parents when possible and necessary.
Talking with the mother alone gives her privacy in assessing her unique concerns related
to paternity acknowledgment. A birth registration clerk in Texas reports, “The mothers
tend to be more anxious when the father is in the room, wondering what he’ll say. ”
Talking with the mother alone may also increase the comfort level of the hospital staff
member. One respondent said she can better approach the subject and learn the mother’s
wishes when she is alone, saying “Even sometimes when the father is there I might wait




                                              8

for a time when the mother is alone because I’m afraid it might be an abusive situation. ”
Mothers may also be unsure of the father’s identity and would therefore value private time
to answer questions.

Pre-arranging a Time For the Father to Sign or Receive Information May Avoid
Problems of Timeliness and Coordination, and Allow Staff to Talk with Both Parents at
Once.

Most hospitals report the best time to locate the father is right after delivery. At this
time, hospital staff may choose to pre-arrange a time with both parents present to discuss
paternity and sign the acknowledgment. An Illinois hospital respondent talks with the
father if he is present or gives the mother an opportunity to telephone the father and bring
his picture identification so he can sign the affidavit or at least be given paternity
information. Another hospital phones the mother in the hospital room and offers to
arrange a meeting time. Pre-arranging a time for the father to sign or receive information
is beneficial for both parents as well as hospital staff in cases where a notary is only
available at certain times. Another obvious advantage to hospital staff in talking with both
parents together is saving time by making only one contact.

Hospital Staff Should Recognize and Adapt to the Influence of Others on Parental
Decision-Making.

Others present in the hospital setting, such as maternal and paternal grandparents, may
heavily influence parents when deciding whether or not to acknowledge. Hospital staff
may be able to use these people to serve as “translators” of the paternity message.
Discussing paternity with a mother can be a very sensitive issue, and the presence of the
maternal or paternal grandparents may either hamper or encourage discussion about
paternity. One health information systems administrator said “Grandparents can make it
difficult to talk with the mom. It is more uncomfortable talking with her if the
grandparents are in the room. n Another hospital respondent commented, “Yes, many
times the girl’s parents are there and they are into the issue and it can get sticky.”

A number of different strategies may be employed to handle the presence of grandparents.
Another hospital respondent says she explains the law to the grandparents and adds that it
is the mother’s responsibility to make decisions for her own child. Sometimes a birth
registrar may need to ask very personal questions of the mother about past pregnancies.
A Virginia respondent simply asks the unmarried mother whether or not she wants others
to be present when she talks to her. When grandparents favor acknowledgment, they can
be powerful allies for hospital staff and serve in a translation role. For example, a
California birth registrar likes the grandparents present because the unmarried parents may
be very young and may not fully understand what ‘paternity’ means. One registrar
reports, ccA lot of times the mother of the unmarried mom is there and she is a big
influence in encouraging the mother to acknowledge. ” Because the birth registrar isn’t
intimately familiar with the parents it makes sense that parents might rely on others,
especially if the parents are young. Many parents want to use all of their available



                                             9

resources in making a decision about paternity, including close friends, grandparents, and
public assistance caseworkers.

Where Hospital Staff Choose to Go Beyond Informing Parents to Serving as Advocates
of Acknowledgment, they Should Be Careful to Preserve its Voluntary Nature.

While some hospital staff may simply inform parents about the option of acknowledging,
others perceive their role as that of counselor and advocate. These latter must maintain a
balance to preserve the voluntary nature of paternity acknowledgment. Although it is
most important that hospital staff provide parents with timely and accurate information on
the process of acknowledging paternity, a number of hospital respondents reported more
personal levels of communication with unmarried parents. Some hospital staff feel
strongly about the societal benefits of paternity establishment and are therefore especially
motivated to encourage parents to acknowledge. Those hospital respondents who choose
to go beyond merely informing parents about paternity by serving as advocates of
acknowledgment vary in their degree of encouragement.

In the process of distributing paternity outreach materials, hospital staff who choose to
serve as advocates may discuss the details of a patient’s circumstances and relate the
benefits of acknowledgment to their situation. Staff who are involved at this level appear
to come more often from the obstetrics than the medical records departments. This may
be due to their greater interaction during the mother’s hospitalization or because obstetrics
staff members are already heavily involved with patients regarding other highly personal
issues such as baby care and postpartum recuperation. The decision to take on this
broader role is likely to vary from patient to patient. When staff determine that it is
appropriate to take on the role of advocate rather than educator, it is important to not
mislead or coerce parents into acknowledging or giving advice that goes beyond the
parameters outlined in staff training and outreach materials.

PRENATAL EDUCATION

Nearly All Hospitals Offer Childbirth Classes, and Some Include Paternity
Acknowledgment Education in their Prenatal Curriculums.

Prenatal education gives unmarried mothers more time to think and prepare for a decision
concerning the paternity affidavit prior to delivery. This advance notice allows the mother
to encourage the father to be present at delivery and to bring identification needed for
notarization. A number of hospitals include paternity acknowledgment information in
childbirth education classes. This strategy can reach a large proportion of the target
population due to widespread acceptance of the importance of childbirth classes. In some
States, mothers on public assistance or Medicaid are required to take such classes.
Paternity acknowledgment information may be included in the parent tour of labor and
delivery facilities required by many hospitals. A Massachusetts hospital offers a separate
childbirth class just for teenagers which focuses more on paternity acknowledgment than
the general childbirth course.



                                              10 

Medical Clinics, Physicians’ Offices and Schools are Valuable Venues for Addressing
Paternity Acknowledgment Issues Prenatally.

Once outreach materials are produced, States would be well-served to market them beyond
the hospital environment. Mothers must, of course, seek medical care during pregnancy,
and this provides a number of entry points for providing outreach to mothers at a less
stressful time than the hospital stay. Some States have targeted only high-risk clinics for
this outreach and some have taken a broader approach by distributing materials and
presenting workshops at clinics, physician’s offices and schools statewide. Materials may
also be placed in other social service offices and in child care centers. Outreach to
schools may be particularly effective because it involves the father as well as the mother
and because it reaches young people who are not yet pregnant. Colorado’s child support
agency is currently developing specific curriculum for its public schools on paternity
establishment so outreach may be conducted within the framework of health or parenting
classes. Although the regulations written for interpreting OBRA focused primarily on in-
hospital paternity acknowledgment, there is a clear intention to broaden paternity outreach
beyond the hospital.

FOLLOW-UP AFTER DISCHARGE

Timely Follow-up with Mothers After Discharge Reintroduces the Idea of
Acknowledgment at a Less Hectic Time and Provides a Method for Supplying Additional
Outreach Materials and Documentation Forms.

When hospitals or child support agencies make the effort to follow-up with parents who
do not acknowledge during the hospital stay, parents are afforded another opportunity to
acknowledge before the birth certificate is filed. Often, hospitals routinely call all
mothers anyway to check on the baby’s progress and the mother’s post-par-turn care. The
mother and child’s hospital stay may be very brief, making a full discussion of the
paternity acknowledgment process difficult. Through follow-up, hospitals allow parents
more time to understand the benefits of acknowledgment.

Follow-up may consist of phone calls, letters or both. When follow-up letters are used,
they may include the following information: number of days they have to establish
paternity, the fee for late acknowledgment, and legal information regarding time limits for
registering the birth and for changing the baby’s surname. An example of a follow-up
letter is included in Appendix I. Hospitals usually place phone calls within two weeks,
and may send letters following phone contact. The amount of time allowed depends upon
when the birth certificate information is due to the vital records agency. Because parents
may relocate quickly after the time of birth, prompt follow-up is important.

In some States, privacy statutes prohibit the child support agency from receiving
information on nonmarital births until they become a part of the IV-D caseload. Indiana’s
child support agency purchases lists of parents from hospitals as would a diaper service or
a parenting magazine. They then notify all mothers who have not listed a father’s name
or have provided different surnames for the father and the child.


                                             11
Another common method of encouraging acknowledgment after discharge is holding the
birth certificate for a few days in case the parents change their minds or if the father was
not available. Several hospitals give the mother outreach information and/or the paternity
affidavit and tell her to contact them if she decides to acknowledge or can locate the
father. One hospital gives a discharge packet of materials containing a form letter stating
they can still acknowledge paternity without a fee if the parents return within a certain
number of days. Follow-up may be even more crucial when the birth registration clerk is
not there on weekends to notarize acknowledgments.




                                             12 

                            CONCLUSIONS 


Although many States are still early in their implementation of in-hospital voluntary
paternity acknowledgment programs, a number of State child support agencies have made
great strides in addressing parent outreach and education. Based upon our analysis of the
materials and practices reviewed in this report, we draw the following conclusions about
parent outreach and education:

CONTENT OF MATERIALS. Outreach should explain the benefits and consequences
of paternity acknowledgment as well as the mechanics of acknowledging, and written
materials should be supplemented with discussion. Not only is oral communication of
paternal rights and responsibilities mandated by PRWORA, but direct contact between
hospital staff and parents clarifies the concept of paternity and allows parents to better
relate issues to their own circumstances.

INDIVIDUALIZED APPROACH. Hospital staff should attempt to personalize outreach
efforts, using information about the parents to better meet their needs. Different
approaches are appropriate in speaking to the parents about paternity according to the
timing of the presentation, the availability of the father, the visitors in the room, the
mother’s interest, and cultural or language barriers.

USE OF MULTIPLE OUTREACH VENUES. Multiple outreach opportunities can be
used to reach a broader segment of the target group and to introduce early, and
reinforce through repetition, a clear message on paternity acknowledgment. States
should use a variety of entry points for introducing paternity acknowledgment information.
Parents may receive paternity acknowledgment information at the physician’s office,
during a childbirth class, hospital pre-registration, or upon admittance prior to delivery,
rather than only during the hospital stay for delivery.

FOLLOW-UP AFTER DISCHARGE. Timely follow-up with mothers after discharge
provides additional encouragement to acknowledge, and opportunity to re-distribute
documentation forms. Many parents may leave the hospital without acknowledging
because of the unavailability of the father or of a notary. They may also need more time
to make the decision to acknowledge and would value a reminder and the availability of
new documentation materials.




                                             13 

AGENCY COMMENTS 


We have worked in close partnership with OCSE throughout the conduct of this 

inspection. Although we did not receive formal comments from ACF on our draft 

reports, they demonstrated through their collaboration a general agreement with this report 

and the companion reports. We worked with OCSE in developing a research 

methodology, provided extensive briefings on study findings and created additional 

documents to meet agency needs. We appreciate their cooperation and guidance and will 

continue to work with them on the issues raised in these reports. 





                                             14 

     Appendix                   A:      Ouestions                     and         Answers 



                            Typical       Questions        and    Answers'

                  Questions                                                  Answer8
Why can’t the father just sign the birth                Having the father’s name on the birth 

certificate?                                            certifkate is a good first step, but it does 

                                                        not make him the legal father. When the 

                                                        father signs the affidavit he is saying that 

                                                        he is the baby’s biological father. It is best 

                                                        if the father signs both the birth certificate 

                                                        and the acknowledgment of paternity. 




Whose name will be on the birth                         Example: If the baby’s mother and father 

certificate?                                            complete the affidavit of paternity at the 

                                                        hospital, the father’s name will appear on 

                                                        the birth certificate based upon the 

                                                        information the hospital sends to the Center 

                                                        for Health Statistics (Alabama). 

What if I am not yet 18 years old?                      You can still be named as the father. You 

                                                        can also be ordered to help the mother 

                                                        support the child. Even with limited 

                                                        income, fathers should be required to 

                                                        provide regular financial support for their 

                                                        children. 

What if the mother and child live in a                  States have an agreement which allows the 

different State from the father?                        mother to prove who the father is even if 

                                                        he lives in a different State. The 

                                                        agreement also covers coIkcting child 

                                                        support from absent parents in other States. 

Genetic testing                                         Genetic tests can be performed to 

                                                        determine the paternity of a child. These 

                                                        tests will show that a man is not the father 

                                                        of a child or indicate the probability that he 

                                                        is the child’s father. The test results 

                                                        provide reliable information to aid parents 

                                                        and judges in parentage decisions. 



 1
      When m answer is referred to as an “example,” specific State laws appear to dictate the response
      and the answer should not be considered viable for all States.


                                                  A-l
Who pays for the blood tests? 	                      Answer varies by State such as the father,
                                                     AFDC, child support arranged payments,
                                                     or private arrangements with the hospital
                                                     or a paternity testing laboratory. Parents
                                                     may ask hospital staff for information.
What about Visitation and Custody? 	                 Issues concerning custody and visitation are
                                                     not a part of the paternity establishment
                                                     process. If they become an issue then they
                                                     may be resolved by a voluntary
                                                     arrangement between the parents or by
                                                     court action.



What if the child is receiving government        If the child is receiving APDC (welfare) or
assistance (welfare or Medicaid)? 	              medical assistance, the mother must assist
                                                 the agency to establish paternity. When
                                                 the parents sign the Affidavit
                                                 Acknowledging Paternity, a copy is sent to
                                                 the child support office.
Can I sign the acknowledgment if   I am          A father can sign the affidavit is he is
married to someone else? 	                       married to someone else. A denial of
                                                 paternity form is available for a mother
                                                 who is married to someone who is not the
                                                 biological father.
Why is establishing paternity important? 	       Explanations include identify, benefits,
                                                 money, medical, etc.
How is paternity established? 	                  -Voluntary Acknowledgment of Paternity
                                                 Affidavit in the hospital.
                                                 -Paternity AfElavit after discharge from
                                                 the hospital.
                                                 -Seek State Child Support Agency

                                                 Example: When the baby is born the
                                                 hospital staff must get information for the
                                                 baby’s birth certificate. They will have the
                                                 Affidavit Acknowledging Paternity form
                                                 for the mother and father to sign saying
                                                 that he is the biological father. The
                                                 parents must show a picture ID, such as a
                                                 driver’s license. Both parents must give
                                                 the hospital staff their social security
                                                 numbers.



                                       _     A-2 

Does there have to be a trial?                       Example: No, not when you and the
                                                     mother both agree that you are the father.
                                                     Even for those cases which go through the
                                                     court, there is usually no trial. It is easiest
                                                     to establish paternity when the mother and
                                                     father have a good relationship. If you
                                                     have any doubts, you may ask for paternity
                                                     blood tests to be sure you are the father
                                                     (Colorado).
What if the father thinks the pregnancy was          Example: Texas law says that a father is
an accident?                                         responsible for supporting his children.
                                                     This means that once the court decides he
                                                     is the biological father, the man must pay
                                                     to help support his child, even if the
                                                     pregnancy was an accident.



The mother of the child said she was using       Example: Legally, you are responsible for
girth control. I do not think I am               supporting the child if you are his or her
responsible for the pregnancy, so why do I       biological father. It does not matter
iave to pay?                                     whether you agreed to the pregnancy.
What about child support?                        Example: The law requires that both
                                                 parents provide for the financial needs of
                                                 their child. By receiving assistance from
                                                 both parents a child’s chances for success
                                                 are greatly improved.



)oes the father have to pay child support?       Example: Yes. Once paternity is
                                                 established, the father has a legal
                                                 obligation to support his child through
                                                 minority and /or as otherwise allowed
                                                 under law.
f I am afraid of the father, do I have to        If you are asking for public assistance or
lame him?                                        help with paternity establishment, you must
                                                 name the father. However, you may not
                                                 be required to establish paternity if you can
                                                 show risk to yourself or the child. This is
                                                 called “GOOD CAUSE.” Include contact
                                                 telephone numbers for more information.




                                             A-3 

  Appendix                                     B:          Sheet                           for              Parents’                                   Initials
                                                WHATD-OESIThfEANlFYOC'SlGNTHLS                                                     FORM?


    6~ stgning this acknowledgment                  of parentage.     you are establishing              your child’s     legal patcrtuty.         Paterruty      means fatherhood
    For parents who are not married                 to one another,     paternity      may be established              legally    only by signing          this form or by gomg
    10 court      Otherwae.       your child ~111 have no legal father.


    Slgrung dus form          IS volun~          Smcc thus form has legal consequences.                       you may warn (0 consult an anomey                      before sigrunf

    .          If your child IS under SK months of age when you s1g1-1
                                                                     tlus form.                                patemny           IS established     on the dare both ~DG
               h+vt signed this form unless             either parent       quests         blood or genetic marker MU                 within      OIK year of signing.           Such
               blood or genetic marker           tests must be rquested              through      the proper court or the State Child                 Support      Enforcemem
               Division.      Once signed by both parents and notaruai.                        thus form has the same btnding                  effect 1s a court Judgrnenl of
               pat~tity     ad    the birth    record will       not be changed withour                a court order.

   .           If YOU child is six months of age             or older when you sign this form, pstensity                            is u&bii~bcd        00 the date both
               pU’al&   &WC S@d     this form.   You cannot request blood or genetic marker tests later.  If you want t0 have a blood
               or gmtic  marker teat to verify paternity, do oot sign this form until you have received the results of the teSl Once
               signal     by both parents and notarized,            this form will have rbe same binding                     effect as a coun judgment              of paterrury


   Thts acknowledgment            allows a parent to seek a child support                   order wlrhout       funher      court proceedings           to establish patenut? 

   T?US aChWkigment               my      be fikd    in court and serve 1s the basts for orders of custody or vtsitatton. 



   If this form is not signai          in the hospital,     the father’s      name will        not     appear on the birth cemficare               unless the blah       c~filfi~e 

   IS amc&d         at a later due.       If you want to add the father’s              name later. you musf complete                   rlus Volwuary Achnowledgmeru qf 

  PUWIUU~C - F’osM~~I     form.              YOU must then file the completed                   form WI&I the cny or town clerk’s                  offxe       where the ch.tld NX 

  born or go to court to vnend              the child’s birth certificate. 



  TIus acknowMgma?t              is not a public       record.     It wtll be available          only 10 the parents and child namal                   on this form.       the 

  child’s   legal guardian       or legal rcprcsentarlve.          or grvemmenr            officials     tn the conducr of their official            duties. 



  If another W’S   name is alrudy  on the birth ccnificate ud you want to amend the birth cenifiute                                                  to include     the father 

  named on rhIs form. you must file this form with the court. 



                              WHAT ARE YOUR RIGHTS AND RESI’ONSIBILITIES AS PARENTS?

 Both parents are required          by law to support            their child from birth.             If your child does not live with you. you m?y be ordered
 by the court to pay child suppon               until the child’s     eightccnrb       btrthday.        or beyond III some          circumstances.



 A parent who does not live with the child may have the rtght to visit and establish a relationship                                            with the child as you both
agree or as ordered         by the court.


For children      born of wmarricd            parents. the mother       has custody of the child unlas                   otherwise      ordered      by the court.


                              HOW WILL YOUR CHILD BENEFIT IF YOU SIGN THIS FORM?

Every child has the right 10 hw                 his or her mother and father and benefit from a relationship                               with both pventJ


1.our child ha.5 a right to fuunclal            support   from both of you until age cightan.                     or beyond         in some circumstances

Ir will be easer for your child to learn the maIlcal                   hlsror1c.s of both parents and 10 benefit                    from health care coverage
available co you


II WIII be tlSler       for your child to receive benefits such as dependent or survivor’s                             benefits     from    the   \ etefan’s     AdnuNstratlon

or from the Social Security            Admmistratlon


Ir will be easier for your child to mhertt through                   you.                     Mother's Initials                             Father's hilids
QWSUOIU     Egudmg the buth ~;~ISUXUOD procu~ should be auutcd to the Reglsrry of vital R&ords and 9atistx.s it 617-727JNJ6
@ZS~IO~E    R@rdmg ctuld supCran should be duesred I@ rhc MA Dcpr of Revenue. Cfuld Suppon Enforuwnt      DW 11 1-8@-33?-273!



                                                                                     B-l
                What Is Patemlty?                               How    Da WI Eatiblish      Paternity?


Paternity means fatherhood. EatabW&bgpaWmity             Then arc several ways that paternity may be
meanrapersoftMmcd~thththcrd~drlldhr                      m.           A kM tip&r&ion        of each of them is
been legally dctemrlnrd to k thr bthW d @Chit&           Usted below. If you kve questions about any one
Establishment of ~8terrdty is tKQIuIJ   e      when      method or md help to determine which may best
the mother is not ma&d    to thr bthrr of tht child.
                                                         meet your needs, you may contaci the Child Support
                                                         Liforcernrnt office, legal counsel or your local Clerk
                                                         dcouri.                                                                                                            II 1111
 Why      Is Estabw       Paternity Importlnt?                                                                        Parentsdonot agnx tovolunt.~rily t*2rtdbh-h patcvnlty.
                                                         B-North                             Carolina provides        legal action my be filed with thLeWU~I IO c>tabiA
Both parents have a right and a need to know that        theopportunity fora father toacknowledge paternity           paternity for a child. After ,111t*vidrnkr    I> ~ve’v’nt~~d,
they have contributed to the future development of       at the time of a child’s birth. This is a simple             a iudge will decide If patcrnlty     ~I~OUIJ hc cmI~*nxt
their child.                                             procedure whereby parents sign the Affidavit of
                                                         Parentage form in the hospital. This allows the
                                                         father’s name to be placed on the birth certificate, and       Do We Need To Establish            f’Jtrrnity    Now?
ldfntifv - b%kall have a basic need to know who we
JW and who our family members are. By knowing            also serves as a legal acknowledgment of paternity.
both parents we have a better undccstondingof our 

own identity and pasL Establishing paternity will        Paternity may be established         by signtng     thir 

help to strengthen a child’s emotional growth by         affidavit if: 

providing an added sensed security as well as aiding 

in the child’s social and pychd~gid    development.                the mother was unmarried when 

                                                                   she became pregnant and when
&&,tj    -Yourchild needs tobe �   w~ofhisparents                  the child was born, &
rnrdicd  history This is important as your child may                                                                       What    Abe-It    Visitation    And     Custody?
have inherited diseases or diisordcn which may not                 the father is willing to sign an
be detected at birth or in chiidhood.                              affidavit stating that he is the
                                                                   father of the child.
w        - Your child has the right to benefits from
both parents. These may in&de          Sod81 sccU?it~,   This Affidavit of parentage is filed with thr State
insurance benrfits, inheritan-   rights, Hteran’s and    Registrar (Vital Records) and legally declares the
other types of benefits. Your child may not receive      paternity of your child.
these fnlm his father unless paternity hasbeen legally
                                                                                                                        How    Do I Find Out        More    Information       On
Jcknowlrdged or established.                                                         *      I     ‘_
                                                          p                                            Ifyoudid                       Paternity And Other
                                                          not rstablirh paternity at the time of birth, you may
           The Irw requires that both parents provide                                                                               Child Support Services?
 w                                                        choose todoso at a later datr. The mothrr and father
 for the financial needs of their child. By receiving     sign documentsacknowledging they are the parents
 .Issistance from both parent5 achild’s cham       for                                                                 If you have morv qurstlons rvgardtng p,ltvrnlty .ln<l
                                                          of a child. These signed statements are presented to
 success are greatly improved.          ;                                                                              other child support issues ‘+ou m.ly contact tht* Loc.ll
                                                          the court and an Order of Paternity is entered ‘l’hls
                                                                                                                       Child Support Enforcement ofttce whtch FCWO yc,ur
                                                          lrgally establishes patqmity for a child.
                                                                                                                       county   The staff can answer any furthcar quc+~c~~
 FJther?;as well as mother; have the right to know :
                                                                                                                       that you may have on patrrmly         .I\ well ,I> cxpl.~~n ~11
 their child and a responsibdity t0 SUppOrt them.
                                                                                                                                               svrv\cvb that rlrv .~v.~ll~hlt
                                                          CpnrhE            - If there a~ any doubts     regarding
                                                                                                                       other child support
                                                          the paternity of a child, you should not sign any
Appendix                             D:         Parent                      Information                                 Sheet 




                                               How a Decltmtion of Puternity
                                               Can HelpYou andYour New Baby
                  What    is a Dcclamtion      The Declaration qffafemr!y    is a legal document that, when signed by
                              of Paternity?    both parents, says the man ts the natural father of the child.


            How     Can a Dtclamtion of        When the parents of a child are not married at the beginning of the
                      Paternity help me?       pregnancy or at the birth of the child, the father may NOT be considered
                                               a legal parent with rights or responsibilities for the child. Even signing
                                               the child’s birth certificate will not make him the legal father.
                                               To help you gain legal tights as your child’s father, you can sign the
                                               Dechztion    of Paternity In most cases,signing the form will make it
                                               easier to establish paternity in court later.


                      Why should I sign       To show your child that you are proud to be his or her father!
                         the declaration?     To help you have a bond with yourchild.
                                              To get a legal paper that saysyou are presumed
                                              to be the child’s father under California law.
                                              To giveyourchild your legalname ifyou choose,
                                              To helpyou be able to add yourchid to yourhealth insuranceplan.
                                              To help make surethat your socialsecurityor veteran’sbenefitsare
                                              paid to your child in caseyoudie or aredisabled.
                                              To help protect your child’s right to inherit from you.


           wh8tdoesitmeanwilen                After both parentshave signedthe Lkhation         of Pattmiq, the form
                 I sign the declaration?      and other appropriatepaperworkmaybe filed with the courtto establish
                                              paternity.Oncepaternityis established,youwill havethe legalrightsand
                                              Bnancialresponsibilitiesof a parent underCalifbmia law. Siig          this
                                              declarationwill help yourchild havethe samerightsthat he or shewould
                                              haveif youweremarried to the other parent.


                  Howdol.flIIoutthe           sectionsA,BuldDshouldbefiucdoutbythepvrntsof~echildThe
                         : 	 t!eclu8donr      witnesswill fill out sectionE. Seethe inshucGonson the declarationfor
                             :                mom detailx




cs9lO   (It%.)
                             Appendix                         E:            Parent                   Statements
                                                        PATEKNITY ACKNOWLEDGEME?,
                                                    RJGHTS AND RESPONSIBILITIES STATI3IEN-I

   RlGHTS AND RESPONSIBILITIES                        OF FATHER

   I have read or was told.of the follo\%ing matters before signmg the acknouledgement                      of patemit?, on the reverse side of thus
   form

             I	          I understand that my signature on this form establishes that I am the natural parent of the named child for all
                         legal purposes

           2            1sign the Acknowledgement of Patemit! voluntarily and understand that l am under no obligation to do so No
                        pressure is being or has been placed upon me to sign I understand I may take the followmg actions instead of
                        signing this form

                                 seek the advice or representation of legal ccunsel 

                        ::       request that blood tests be taken and 

                        C        have the matter of patemi& determined by the court 


         3             I understand that I will have the responsibility         10 provide support for rn>’child

         4	            1 understand     l will be responsible to pay such support until the child turns I 8 years of age or beyond if required
                       by law.

       5	              I understand that after palernie is established 1ha1.e the right to request visitation with and custody of the child
                       Custody and visitation are decided in legal actions separate from the issues of paternie and child support

     6                 I understand     that the Acknowledgement     of Patemit?. may be used rn any legal proceeding regarding my child

     7	               I understand     that I have the right to talk to a staff person to clat-if? information     on this form and answer an>
                      questions I have.

RIGHTS AND RESPONSlBlLlTlES                         OF MOTHER

I have read or was told of the following matters before signing tile acknowledgement                     of paternity on the reverse side of this
form.

    I. 	           I understand that my sibwahlre on this form means that I swear that f am the mother of named child and the
                   Person signing as the father is the biological father of the child.

   2. 	           I sign the Acknowledgement of Paternity voluntarily and understand that 1 am under no obligation to do ~0. No
                  Pm        is being or has been placed upon me to sign I understand I mav take the following actions *ad   of
                  signing this form.

                  a.         seek the advice or representation of IegaI counsel
                  b          request that bled tests be taken and
                  C          have the matter o I’patemiv determined by the court

  3	              1 understand        that a&r patemitv is established the father has the right to request visitation with and cudY            of the
                  child. Custody and vi srtation he decided in          legal   actions separate loom the issues of paternity and child SuPpOfl

  4. 	            1understand that I h.?ve the right to talk to a staff person to clarify information            on this form and answer any
                  questions I have.



                                                                       E- 1
                                                                                             Jon and Mary just had a baby. It’s a joyous occasion.
                                                                                             Thafre still young, and this is going td be a major test
                                                                                             ol their maturity...




                                             Jon
                                      Young. confused and
                                                                       Baby
                                                                Jon 81 Mary’;newborn
                                      WImtiq to mrkc the       bay.   wa they adish
                                           rlghi choict.          paternity? Maybe!
                                        ‘-7




                                       1‘.
                                                                       Dinah
VI                                                                 &privcd daughter
                                                                    of Ann and .--?
b-!

      4
      i



                                             Ernie                        “TIP


          ! .wkpJ tar love in all    He liva a lift of *me                T6mns
                                                                The product al looking ~SI
             ;!:r wrung places.     He hks   his b~ka   name   love in ah the wrong piacq
          Appendix                                             G:        Certificate                                               Worksheet

   BIRTH CERTIFICATE WORKSHEET
   Sonora Community Hospital




   Delivered By:                                                                                                   Medical Record Number:                               -


   I have named my baby:                  (rti)                                       (middle)                                            O-t)

   SexofChild:~M                 --          F                 Single -Twin             -Triplet                  Length                  inches

   Date ofBirth: ---         /               /                   Time of Birth:                  :     a.mJp.m.                  Weight                  Ibs.-oz.


  Information on Father:                   (nm)                                         (middle)                                             0-0 



  State of Birth:                                       Date ofBirtb: ---         /       /           Last grade of education complete& 

  Information on Mother: (n,,t)                                                          (middle)                                                @uiIkn) 



  State of Birth:                                       DateofBirth:              /        /          Last grade of education completed: 



’ Race of H&w       6Ui-j:                       White / Black / Asian / American Indian / Other
  Spanish or Hispanic in background?                           No / Yes WHY)                                 Social Security Number:
  Occupation of Father:                                                                          Type of Industry:
  Race of Mother wdu):                           White I BIack I Asian I American Indian i Other
  Spanish of Hispanic in Background?                           No / Yes WICCWY~                             Social     Security     Number:
 Occupation of Mother:                                                                           Type of Industry:
 Home Address of Mother:                                                                                     I
                                           mlrrr*                                                            w.=-.zlp-
 MaiIing Address of Mother:                                                                                  I
                                             sbrup.0.Box                                                         CltY.sbt*up-

 County of Fksidence:                                                    Telephone Number: (                                 )                     -


 Dateoflastnormal       Inenhldpeliod:                               /        /                  Month prenatal care began w llsti*):
 Numberof psxsata.i visii                               !hurce of payment for care: Private Pay / Muli-Cal                                   I Blue          Cross/ E=Tvate

 I have -otherchildnnwhoycnowliving(&lt-tbb~r~~~~
 Ibave-       otherchildren~omrrborn~ebut~enowdead(~lc-~Um~rld~~
 I have had         miscarriages before the Wth month of pregnancy.                                     I have had -                miscarriages after the Gfth month of
 Pregntney.--
 Date of birth ofyoungest             cbild~~rtcrttuaudr..,~~~                                          /          /         .
 Dateoflastmiscarriage:               -          I -d      I


 p0 you want a soti security number for (your new baby?                                              Yes _        No. May the Social Security Administration                  share
 ti~theDeparbnentofHe.&hServices.         -Yes-No.



Signature of Mother or Father:                                                                                                     Dated:                    I      I




                                                                                       G-l
                     Appendix                    H:          Evaluation 


                                         BABY INFORMATION

  Name:                                                                       Baby’s DOB:           1       !
            First            Middle                Last




                                       MOTHER INFORMATION

  Name:                                                                       Mother’s DOB:             1       !
           First             Middle      La.St             Maiden


  County of Residence:                             Race:                      Years of Education:


  Marital Status:                                 Occupation:
    1 - Married to FOB
    2 - Married but not FOB                       Worked during pregnancy: l-Yes            ~-NO O-Don’t know
    3 - Common law with FOB
    4-Notmarried                                  Number of other children:

 Language Barrier:                               Pre-natal care:
    l-No                                         I- No pre-natal care
   2 - Yes...    I- Spanish only                 2 - Pre-natal care, not at this facility
                2-other                          3 - Pre-natal care at this facility

 Mother’s social security number:

                                      FATHER’S INFORMATION

Name:                                                                       Father’s DOB:           /       !
          First            Middle                Last




RXXX                                                                        Years of Education:

                                      PROJECT     INFORMATION

Was father present at delivery:            Reasons Paternity Affidavit Not Completed (CWC 011thatapply)
  l-Yes                                        1 - Mother doesn’t want him on (abusive/fears/dislikes father)
  ~-NO                                         2 - Father uninterested, not involved
  0 - No information                          3 - Father incarcerated
                                              4 - Father out of state
Was the paternity affidavit signed:           5 - Father not at hospital
  1 - Both parents signed                     6 - Both interested, but want to wait
  2 - Mother signed                           7 - Mother wants father to marry her Brst
  3 - Neither signed                          8 - Mother wants boyf?iend to adopt the baby
  8-Other                                     9 - Adoption by third party
                                               10 - Father doesn’t believe the baby is his
RR Present?         CSE-6 Gives?              11 - Neither parent interested
  l-No                l-No                    12 -Wants iuf&mal payments, can do better financially alone
  2-Yes               2-Yes                   13 - Doesn’t kttow who father is
                                              14 - Mother doesn’t want him on, no reason given
# Video    # In-person     # Class            15 - Married, but not to FOB
                                              16 - Cannot determine
                                              17-Other



                                                  H-l
          Appendix             I:      Follow-up              Letter



Dear

       Our records indicate that your baby was born on
to date we have been unable to register the baby’s birth for the following
reason(s):

             Parents of the child have not signed the birth certificate and/or the
             acknowledgment of parentage.

             Mother of the child has not signed the birth certificate and/or the
             acknowledgment of parentage.

             Father of the child has not signed the birth certificate and/or the
             acknowledgment of parentage.

             Parent(s) have not completed a birth certificate worksheet. Please
             find worksheet enclosed. Fill out immediately and return to the
             medical records department at the hospital.

Other:



      Your immediate attention is required on this matter. Please contact me
with any questions you might have.

        The baby’s incomplete birth certificate will be sent to the town hall on
                       if we do not hear from you. At the town hall the birth
certificate will be pi into a pending file until this matter is taken by you.

Thank you.


Birth Registrar




                                        I-l
